                             United States Attorney John P. Kacavas
                                   District of New Hampshire


FOR IMMEDIATE RELEASE                                               CONTACT: Theresa A. Leppard
Monday, May 20, 2013                                                (603) 230-2502
http://www.justice.gov/usao/nh/                                      email: usanh.media@usdoj.gov


                JAMES BENDER CONVICTED OF CONSPIRACY TO DEFRAUD 

               INTERNATIONAL CUSTOMERS OF NEW HAMPSHIRE BUSINESS


        CONCORD, N.H. – James Bender, 48, of Sharon, Massachusetts, was found guilty of
conspiracy to commit wire fraud after a four-day jury trial in the United States District Court for the
District of New Hampshire, announced United States Attorney John P. Kacavas.

        Bender, a former Senior Vice President of Trade Finance for Sovereign Bank conspired with
Paul Wilson, the former Manager of International Trade Finance for Goss International Americas
Corporation, to defraud several Latin American customers of Goss. Goss manufactures commercial
printing presses. One component of Wilson’s job was to facilitate international sales by arranging
financing for foreign purchasers of Goss’s products and working with the Export-Import Bank of
the United States to obtain credit insurance for loans extended to Goss’s foreign customers. Bender
arranged for Sovereign Bank to purchase most of the loans Goss extended to its foreign customers.

       Bender and Wilson formed two shell companies called Zephyr Capital LLC and Zephyr
Financial LLC, through which they defrauded two Brazilian and two Mexican businesses that
purchased presses from Goss. Bender and Wilson used the shell companies to send fraudulent
invoices to these businesses charging them for loan underwriting services that were either never
rendered or that Wilson performed as part of his job at Goss. The invoices totaled over $200,000 in
bogus charges. Most of the victim companies wired payments for the fraudulent invoices to Zephyr
bank accounts in the United States, which Bender and Wilson divided between themselves over a
four year period.

        Bender is scheduled to be sentenced on September 2, 2013. He is facing up to 20 years in
prison and a $250,000 fine. Wilson pleaded guilty last year to three counts of wire fraud in
connection with this scheme and was later sentenced to one year and one day in prison.

      This case was investigated by the Office of the Inspector General for the Export-Import
Bank of the United States. It was prosecuted by Assistant United Sates Attorney Mark S.
Zuckerman.
